Audit of USAID/Honduras-Financed Credit
Activities Under the Central America and the
Caribbean Emergency Disaster Recovery Fund


Audit Report No. 1-522-02-001-P

October 1, 2001




      Regional Inspector General / San Salvador
U.S. Agency for
 INTERNATIONAL
  DEVELOPMENT

 RIG/San Salvador


October 1, 2001

MEMORANDUM
FOR:                USAID/Honduras Director, Timothy M. Mahoney

FROM:               RIG/San Salvador, Timothy E. Cox

SUBJECT:            Audit of USAID/Honduras-Financed Credit Activities
                    Under the Central America and the Caribbean Emergency
                    Disaster Recovery Fund (Report No. 1-522-02-001-P)


This memorandum is our report on the subject audit. Your comments on
the draft report have been included, in their entirety, in Appendix II.

This report does not contain any recommendations for your action. I
appreciate the cooperation and courtesy extended to my staff during the
audit.




                                                                            1
Table of   Summary of Results                                     3
Contents
           Background                                             3

           Audit Objectives                                       4

           Audit Findings                                         4

                  Are USAID/Honduras-financed credit activities
                  on schedule to achieve planned outputs?         4

                  Has USAID/Honduras implemented an adequate
                  monitoring system for its credit activities?    5

           Management Comments and Our Evaluation                 6

           Appendix I - Scope and Methodology                     7

           Appendix II - Management Comments                      10




                                                                       2
Summary of   As part of its fiscal year 2001 audit plan, the Regional Inspector General/San
Results      Salvador performed this audit to determine whether USAID/Honduras-
             financed credit activities were on schedule to achieve planned outputs and
             whether the mission implemented an adequate monitoring system for its
             credit activities (see page 4).

             We found that USAID/Honduras-financed credit activities were on
             schedule to achieve planned outputs. We also found that the mission had
             implemented an adequate monitoring system for its credit activities (see
             pages 5 - 6).

             Management concurred with the findings in our draft report (see page 6).


Background   In October 1998, Hurricane Mitch swept across Honduras. Its devastation
             and associated flooding, which continued through January 1999, resulted in
             the deaths of thousands of Hondurans, left nearly a million people homeless,
             and caused incalculable crop, equipment, infrastructure, and other losses.

             The capacity to pay current loans disappeared with the lost harvest, while the
             capacity to earn future income vanished when floods washed away the
             productive infrastructure. As default rates soared with the collapse of many
             businesses, unemployment in agricultural and non-agricultural sectors
             increased.

             In May 1999, Congress passed the Emergency Supplemental Appropriations
             Act, creating the Central America and the Caribbean Emergency Disaster
             Recovery Fund, which provided a total of $621 million in reconstruction
             assistance for countries hit by Hurricanes Mitch and Georges and for
             Colombia for earthquake damages. Of the $621 million, Honduras received
             $291 million.

             Using this funding provided by Congress, USAID/Honduras and the
             Honduran Ministry of Finance signed a special objective grant agreement for
             the Hurricane Reconstruction Program, dated June 9, 1999, to achieve the
             joint special objective “Critical Hurricane Reconstruction Needs Met.”
             Under this agreement, an element entitled Agricultural Credit funds the
             credit activities. In addition, to start these programs before Congress passed
             the Emergency Supplemental Appropriations Act; USAID/Honduras used $3
             million of Development Assistance funds for hurricane reconstruction credit
             activities.

             USAID/Honduras planned to spend $38.3 million on credit programs by
             December 31, 2001. The following chart lists the four credit activities


                                                                                          3
                         audited and, as reported by USAID/Honduras’ financial accounting system,
                         obligations and accrued expenditures for these activities as of March 31,
                         2001.


                                     Names                    Obligations                 Accrued
                                                                3/31/01                Expenditures
                                                              (unaudited)                 3/31/01
                                                                                        (unaudited)
                          Agricultural Cooperative
                          Development
                          International/Volunteers in
                          Overseas Cooperative
                          Assistance (ACDI/VOCA)                   $5,000,000                   $4,467,522
                          Honduran Federation of
                          Credit Unions (FACACH)                     6,000,000                   5,100,954
                          Jose Maria COVELO
                          Foundation (COVELO)                      10,438,996                    7,344,014
                          National Fund for
                          Production and Housing
                          (FONAPROVI) 1                            16,817,691                  10,994,410
                                                                  $38,256,687                 $27,906,900



Audit                    As part of its fiscal year 2001 audit plan, the Regional Inspector General/San
Objectives               Salvador performed the audit to answer the following questions:

                         •       Are USAID/Honduras-financed credit activities on schedule to
                                 achieve planned outputs?

                         •       Has USAID/Honduras implemented an adequate monitoring system
                                 for its credit activities?

                         The audit scope and methodology is presented in Appendix I.




¹ For the FONAPROVI activity, USAID contracted with Barents Group LLC to oversee the program and provide
technical assistance to FONAPROVI. Obligations of $1,831,691 and accrued expenditures of $1,000,000 are
included in the amounts listed for this contract with Barents Group LLC.




                                                                                                             4
    Audit                  Are USAID/Honduras-financed credit activities on schedule to achieve
    Findings               planned outputs?

                           USAID/Honduras-financed credit activities were on schedule to achieve
                           planned outputs. The following chart summarizes the key outputs
                           planned and achieved as of March 31, 2001.

                            Implementer—Output                   Outputs              Actual             Percentage
                                 Description                   Planned2 as           Outputs             of Planned
                                                                of 3/31/01          Achieved by           Outputs
                                                                                      3/31/01            Completed
                                                                                                        as of 3/31/01
                            ACDI/VOCA—Funds                      $1,634,615            $2,054,849               126%
                            disbursed for loans
                            FACACH—Funds                         $2,782,857            $4,431,133                 159%
                            disbursed for loans
                            COVELO—Funds                         $7,265,455            $7,127,947                      98%
                            disbursed for loans
                            FONAPROVI—Funds                      $8,563,429            $9,797,810                 114%
                            disbursed for loans
                                                                $20,246,356           $23,411,739                 116%

                           Based on the percentage of planned outputs completed as of March 31,
                           2001,3 which were validated by our audit tests, we concluded that
                           USAID/Honduras-financed credit activities were on schedule to achieve
                           planned outputs.

                           Has USAID/Honduras implemented an adequate monitoring system
                           for its credit activities?

                           USAID/Honduras implemented an adequate monitoring system for its
                           credit activities.

                           We defined an adequate monitoring system as one that complied with the
                           monitoring methods described in USAID policy; Title 22 of the U.S. Code
                           of Federal Regulations, Section 226.51, entitled Monitoring and Reporting
                           Program Performance; and the agreements between the four
                           implementers and USAID/Honduras. Based on these documents, we
                           determined through interviews and a review of supporting documentation
                           that required monitoring procedures were performed for each of the four
2
  Planned outputs are estimated as of March 31, 2001 by allocating life-of-activity targets on a straight-line basis
over the life of each activity.
3
  As discussed in Appendix I, we considered an activity to be on schedule if at least 90 percent of the planned
outputs were completed by March 31, 2001.




                                                                                                                        5
                 credit activities. See Appendix I for details on required procedures
                 reviewed.

                 Specifically, we found that USAID/Honduras:

                 •   Maintained regular contact with the implementers through meetings,
                     phone calls and correspondence.

                 •   Reviewed quarterly and/or semi-annual financial and performance
                     reports.

                 •   Performed regular site visits to several activity locations for all
                     activities.

                 •   Monitored the quality and timeliness of key outputs as indicated
                     through activity managers’ reviews of progress reports and detailed
                     knowledge about achievements.

                 •   Reviewed the deliverables for the contract with Barents Group LLC
                     (the other organizations operated under cooperative agreements).

                 •   Performed the appropriate monitoring procedures as specified in the
                     implementing agreements. For example, we found that activity
                     managers approved implementers’ workplans and key personnel.




Management       USAID/Honduras, in its comments on our draft report, concurred with all
Comments and     audit findings. Its comments are included, in their entirety, in Appendix
Our Evaluation   II.




                                                                                             6
                                                                                   Appendix I




Scope and     Scope
Methodology
              We audited USAID/Honduras-financed credit activities in accordance with
              generally accepted government auditing standards. According to USAID/
              Honduras, total obligations and accrued expenditures as of March 31, 2001
              totaled $38.3 million and $27.9 million, respectively. We did not include in
              our scope the $0.9 million credit activity implemented by Katalysis
              Partnership, Incorporated. Although USAID/Honduras funded this activity,
              USAID/Washington managed it.

              We conducted the audit at USAID/Honduras, the offices of several
              implementing organizations, and various sites throughout Honduras. We
              conducted the audit from June 5, 2001 to July 31, 2001 and covered the
              period from April 8, 1999 (the inception of the first of the audited activities)
              to March 31, 2001.

              The audit focused on whether the credit activities were on schedule to achieve
              their planned outputs and whether USAID/Honduras implemented an
              adequate monitoring system. Although there were several planned outputs,
              USAID/Honduras officials stated that the key outputs were the loans provided
              to recipients. In addition, the majority (almost 90 percent) of the budgeted
              funding was directly linked to the achievement of these outputs. Therefore,
              we limited our site visits to the verification of these outputs and did not verify
              the achievements reported on outputs other than loans provided to
              beneficiaries. Out of the $27.9 million in accrued expenditures listed above,
              $23.4 million related to the key outputs tested. Of this $23.4 million, loans
              selected for sampling totaled $1.6 million.

              We assessed the Mission’s management controls related to monitoring and
              reporting on the credit activities. Specifically, we assessed its controls for
              approving workplans, monitoring and evaluation plans, and sub-awards;
              reviewing progress and financial reports; performing site visits; and
              monitoring the quality and timeliness of key outputs.

              Methodology

              To answer the audit objectives, we reviewed documentation at
              USAID/Honduras, which included project design documents and
              implementing agreements between parties. These were the documents that
              provided the activities’ planned outputs and funding. In addition, we
              reviewed implementing organizations’ progress reports and workplans.

              To answer the first audit objective, we interviewed responsible officials at
              USAID/Honduras and the implementing entities. In addition, we reviewed


                                                                                                 7
                                                                                                   Appendix I


                          relevant documentation obtained from these organizations. We confirmed
                          the actual progress by performing 44 site visits. During these site visits, we
                          interviewed both the borrowers of the loans and the banks/organizations
                          that provided the loans to ensure that: 1) the borrower existed and 2) the
                          amount of the loan provided agreed with amounts reported by the
                          implementing organization. We used a random sampling methodology
                          (using the dollar value of loans disbursed) to select the loans reviewed so
                          that we could make conclusions on the accuracy of the total loans
                          disbursed.

                          Since most activities did not have time-phased work plans that showed
                          when outputs were expected to be completed at the time of our audit, we
                          developed other criteria for determining whether the activities were on
                          schedule. Therefore, we allocated life-of-activity output targets on a
                          straight-line basis over the life of each activity. USAID/Honduras did not
                          dispute this methodology, and nothing came to our attention during audit
                          fieldwork to suggest that a straight-line allocation method was not a
                          reasonable measure of progress.

                          We considered that an activity was on schedule if at least 90 percent of the
                          planned key outputs (defined, as discussed above, as the amount of loans
                          disbursed) as of March 31, 2001 had been achieved as of that date. This
                          threshold reflected our judgements about the level of performance that was
                          practical and achievable for the audited activities.

                          To answer the second audit objective, we first determined what monitoring
                          mechanisms were established in the implementing agreements, then
                          identified other monitoring methods as defined by USAID’s Automated
                          Directives System (ADS) and activity manager training manuals, and 22
                          CFR 226.51, entitled Monitoring and Reporting Program Performance.
                          Specifically, by interviewing USAID/Honduras officials and reviewing
                          supporting documentation or obtaining other corroborating support, we
                          answered the following six questions for each of the activities:

                          1. Was regular contact maintained with the implementers (Managing for
                             Results Training Material, Unit 2, Lesson 7, entitled Assistance
                             Administration4)?

                          2. Did the activity manager review performance and financial reports from
                             the implementers (ADS 202.3.4.1 and 22 CFR 226.51)?

4
 Whereas the training manual did not contain mandatory monitoring procedures, we believe that maintaining regular
contact with implementers is a key mechanism for adequately monitoring activities.




                                                                                                                8
                                                              Appendix I


3. Did the activity manager perform site visits (Managing for Results
   Training Material, Unit 2, Lesson 7, entitled Assistance Administration
   and 22 CFR 226.51)?

4. For contracts, did the activity manager review deliverables (ADS
   202.3.4.1)?

5. Did the activity manager monitor the quality and timeliness of key
   outputs (ADS 202.3.4 and 22 CFR 226.51)?

6. Did the activity manager perform the required monitoring procedures as
   stated in the acquisition and/or assistance agreement (contract and/or
   cooperative agreements)?




                                                                         9
                                                                                      Appendix II




Management
Comments




                                                                     USAID/HONDURAS
                                                                     MEMORANDUM




Date:          September 4, 2001

TO:            Tim Cox, RIG/SS

FROM:          Timothy Mahoney, Mission Director

SUBJECT:       Draft Audit Report No 1-522-01-00X-P
               Audit of USAID/Honduras-Financed Credit Activities Under the Central America
               and the Caribbean Emergency Disaster Recovery Fund

This memorandum represents USAID/Honduras concurrence with the contents of the draft report
of the audit of USAID/Honduras-Financed Credit Activities Under the Central America and the
Caribbean Emergency Disaster Recovery Fund No. 1-522-01-00X-P.

USAID/Honduras would like to comment that this Mission is committed to achieve planned
outputs and is making all necessary efforts to do it as scheduled. Also, we would like to express
our appreciation to the RIG's auditors for all the information provided through the audit which has
been very useful for the better implementation of the financed credit activities.




                                                                                                 10
